<html>
<title> - UPDATE: THE FEDERAL AVIATION ADMINISTRATION'S CALL TO ACTION ON AIRLINE SAFETY AND PILOT TRAINING</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                      UPDATE: THE FEDERAL AVIATION
                        ADMINISTRATION'S CALL TO
                        ACTION ON AIRLINE SAFETY
                           AND PILOT TRAINING

=======================================================================

                                (111-86)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            February 4, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
54-812                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)

  
?

                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

RUSS CARNAHAN, Missouri              THOMAS E. PETRI, Wisconsin
MICHAEL E. McMAHON, New York         HOWARD COBLE, North Carolina
PETER A. DeFAZIO, Oregon             JOHN J. DUNCAN, Jr., Tennessee
ELEANOR HOLMES NORTON, District of   VERNON J. EHLERS, Michigan
Columbia                             FRANK A. LoBIONDO, New Jersey
BOB FILNER, California               JERRY MORAN, Kansas
EDDIE BERNICE JOHNSON, Texas         SAM GRAVES, Missouri
LEONARD L. BOSWELL, Iowa             JOHN BOOZMAN, Arkansas
TIM HOLDEN, Pennsylvania             SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
DANIEL LIPINSKI, Illinois            JIM GERLACH, Pennsylvania
MAZIE K. HIRONO, Hawaii              CHARLES W. DENT, Pennsylvania
HARRY E. MITCHELL, Arizona           CONNIE MACK, Florida
JOHN J. HALL, New York               LYNN A. WESTMORELAND, Georgia
STEVE COHEN, Tennessee               JEAN SCHMIDT, Ohio
LAURA A. RICHARDSON, California      MARY FALLIN, Oklahoma
JOHN A. BOCCIERI, Ohio, Vice Chair   VERN BUCHANAN, Florida
NICK J. RAHALL, II, West Virginia    BRETT GUTHRIE, Kentucky
CORRINE BROWN, Florida
ELIJAH E. CUMMINGS, Maryland
JASON ALTMIRE, Pennsylvania
SOLOMON P. ORTIZ, Texas
MARK H. SCHAUER, Michigan
THOMAS S.P. PERRIELLO, Virginia
JOHN GARAMENDI, California
DINA TITUS, Nevada
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Babbitt, Hon. J. Randolph, Administrator, Federal Aviation 
  Administration.................................................     8
Scovel, III, Hon. Calvin, Inspector General, United States 
  Department of Transportation...................................     8

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    36
Costello, Hon. Jerry F., of Illinois.............................    37
Johnson, Hon. Eddie Bernice, of Texas............................    46
Mitchell, Hon. Harry E., of Arizona..............................    49
Oberstar, Hon. James L, of Minnesota.............................    51
Richardson, Hon. Laura, of California............................    57

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Babbitt, Hon. J. Randolph........................................    60
Scovel, III, Hon. Calvin.........................................    68

[GRAPHIC] [TIFF OMITTED] T4812.001

[GRAPHIC] [TIFF OMITTED] T4812.002

[GRAPHIC] [TIFF OMITTED] T4812.003

[GRAPHIC] [TIFF OMITTED] T4812.004

[GRAPHIC] [TIFF OMITTED] T4812.005

[GRAPHIC] [TIFF OMITTED] T4812.006

[GRAPHIC] [TIFF OMITTED] T4812.007

[GRAPHIC] [TIFF OMITTED] T4812.008

[GRAPHIC] [TIFF OMITTED] T4812.009

[GRAPHIC] [TIFF OMITTED] T4812.010

[GRAPHIC] [TIFF OMITTED] T4812.011

[GRAPHIC] [TIFF OMITTED] T4812.012

[GRAPHIC] [TIFF OMITTED] T4812.013



UPDATE: THE FEDERAL AVIATION ADMINISTRATION'S CALL TO ACTION ON AIRLINE 
                       SAFETY AND PILOT TRAINING

                              ----------                              


                       Thursday, February 4, 2010

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Jerry F. 
Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Committee will come to order.
    The Chair will ask all Members, staff, and everyone to turn 
electronic devices off or on vibrate.
    The Subcommittee is meeting today to receive an update on 
the Federal Aviation Administration's Call to Action on airline 
safety and pilot training.
    I will try and give a brief statement, and then we will 
call on the Ranking Member, Mr. Petri, for his statement or any 
remarks that he may have, and then we will go to our witnesses.
    Let me say that we expect to be called to the floor of the 
House for a vote in about 15 or 20 minutes, so I will try and 
be brief. The important thing is that we hear from the 
Administrator and General Scovel.
    I welcome everyone to the Aviation Subcommittee hearing 
today for an update on the FAA Call to Action on airline safety 
and pilot training. I would like to especially thank and 
welcome the family members of Flight 3407, some of whom are 
with us here today.
    Two days ago, the NTSB determined the probable cause of the 
crash of a regional airline near Buffalo, New York, occurring 
almost a year ago. The crash is considered one of the most 
significant accidents in recent years because it revealed a gap 
in the level of safety between major airlines and regional 
carriers.
    I want to commend the board for doing an outstanding job. I 
am hopeful that their safety recommendations to the FAA, many 
of which are included in our bipartisan legislation, H.R. 3371, 
the "Airline Safety and Pilot Training Improvement Act of 
2009," approved overwhelmingly by the House last October, will 
encourage the FAA and the airline industry to act quickly to 
improve pilot training standards, address pilot 
professionalism, fatigue, remedial training, pilot records, and 
stall training.
    After this Subcommittee held a hearing on regional air 
carriers and pilot workforce issues on June 11, 2009, 
Department of Transportation Secretary Ray LaHood and FAA 
Administrator Babbitt initiated an airline safety and pilot 
training Call to Action to gather information from the airlines 
and labor organizations to ascertain industry best practices 
and seek voluntary compliance with a number of safety programs.
    Last September, this Subcommittee held a hearing on the 
Call to Action. I praise the FAA's quick reaction to the Colgan 
tragedy and the lapses in regional carrier safety that it 
revealed. I put the FAA on notice then that I would hold a 
follow-up hearing to examine the Call to Action final report. 
And today's hearing will be an opportunity for Administrator 
Babbitt to provide this Subcommittee with an update and to hear 
from the Department of Transportation inspector general on his 
assessment of the FAA's progress.
    Administrator Babbitt, in the Call to Action final report, 
acknowledged that, and I quote, "This is a snapshot of our 
work, which is by no means finished. We will continue to 
aggressively push forward with these initiatives that we 
believe will raise the safety bar even higher," end of quote.
    We want to work with you, Administrator Babbitt, to achieve 
these goals you have set forth. And I believe the real measure 
of the agency's success will be whether it can successfully 
drive its safety initiatives to a timely conclusion.
    I respect and appreciate the FAA's determination since our 
last hearing in September to set aggressive deadlines to 
develop key safety initiatives. My concern is not simply that 
the FAA is a few months behind on any one rule. I am concerned 
that these delays stem from historic patterns of industry 
opposition to any form of regulation and that key safety 
reforms have not been implemented nearly a year after 50 people 
died on Flight 3407, despite promises of swift action from the 
FAA.
    As I have said before, I believe that unless this 
Subcommittee and Congress pursue aggressive oversight or unless 
legislative mandates are in place, the time it takes for the 
FAA to address the most critical safety issues raised by the 
accident is far too long. That is why we introduced H.R. 3371, 
to address many of these issues raised in the Call to Action.
    I want to discuss the status of several key FAA safety 
initiatives discussed in the Call to Action final report.
    First, in 1995, the FAA proposed a fatigue rule based on 
the recommendations of an aviation rulemaking committee. We 
have waited 15 years and we are still waiting for a final rule. 
Last year, the FAA withdrew the 1995 proposal, formed another 
ARC, and planned to publish another fatigue proposal by the end 
of 2009. Yet we are now being told that the FAA's date to 
publish a rule has already slipped to the spring of 2010.
    Second, in January of 2009, the FAA published a proposal to 
overhaul crew training regulations that included increased use 
of flight simulators and stronger upset recovery training 
requirements, something that the NTSB has recommended and that 
we have mandated in H.R. 3371.
    Administrator Babbitt, you testified before this 
Subcommittee last June that the FAA's proposal was, quote, "the 
most comprehensive upgrade to FAA training requirements in 20 
years," end of quote. After extending the comment period, the 
FAA received 3,000 pages of comment and now plans to revise and 
republish its proposal in the spring.
    Finally, the Call to Action plan states that the DOT and 
the FAA review co-chair arrangements between air carriers and 
their regional partners. This is particularly important given 
that the majority of air travelers are unaware when they 
purchase a ticket from a main line airline that they may 
actually fly on a regional airline. In fact, the NTSB expressed 
the need to look more closely at safety issues surrounding co-
chair arrangements during its February 2, 2010, meeting on the 
Colgan final accident report. Chairman Oberstar and I have 
requested that the Department of Transportation's inspector 
general conduct a review of domestic co-chair relationships.
    There have also been positive developments resulting from 
the FAA's Call to Action that we should not ignore. For 
example, more airlines appear to be willing to adopt voluntary 
safety best practices, like establishing flight operations 
quality assurance programs. However, the FAA and this 
Subcommittee will need to follow up in the coming months to see 
if carriers actually follow through on their commitments that 
they have made.
    In addition, the FAA published an advanced notice of 
proposed rulemaking yesterday to strengthen the training 
requirements and the flight hours necessary to be an airline 
first officer.
    I will continue to keep my commitment to exercise 
aggressive oversight to strengthen airline safety and pilot 
training qualification standards. I assure the families of 
Flight 3407, those who are with us today and those who could 
not be here today, and the American people that we will 
continue to push for the provisions of H.R. 3371 that requires 
the first officer to hold an Airline Transport Pilot 
certificate, in addition to receiving training to function 
effectively in an air carrier operational environment, and know 
how to fly in adverse weather conditions, including icing.
    Before I recognize Mr. Petri for his opening statement or 
his remarks, I ask unanimous consent to allow 2 weeks for all 
Members to revise and extend their remarks and to permit the 
submission of additional statements and materials by Members 
and witnesses.
    Without objection, so ordered.
    Mr. Costello. The Chair now recognizes the Ranking Member 
of the Subcommittee for his opening statement or comments, Mr. 
Petri.
    Mr. Petri. Thank you very much, Mr. Chairman. I would like 
to thank you for scheduling this important follow-up hearing to 
our 2009 hearings on air carrier safety and the FAA's Call to 
Action issued following the tragic Colgan 3407 accident almost 
1 year ago.
    While statistically the U.S. commercial aviation system is 
very safe, there is obviously always room for improvement. With 
today's hearing, we continue our focus on the common goal of 
improving our safety record.
    As the families of the victims of Colgan Flight 3407 remind 
us, we can and must do everything in our power to ensure that 
what happened on the day they lost their loved ones never 
happens again. I believe we are all committed to that shared 
goal.
    In the aftermath of the Colgan accident, this Subcommittee 
explored many issues related to the safety of the airline 
system, with special emphasis on regional air carriers. In 
addition, Mr. Costello, Mr. Mica, Mr. Oberstar, and I 
introduced the bipartisan H.R. 3371, the "Airline Safety and 
Pilot Training Improvement Act of 2009," to address the 
critical safety issues considered at our hearings. H.R. 3371 
was approved by the House of Representatives on October 14th 
last year, and similar provisions have been included in the 
Senate Commerce Committee's FAA reauthorization package.
    At roughly the same time, the FAA launched a Call to Action 
on air carrier safety. I thank the administrator for joining us 
this morning and look forward to his update on the progress of 
the wide-ranging initiatives included in his plan.
    At Tuesday's Transportation Safety Board hearing on the 
Colgan accident, the board approved recommendations to the FAA 
regarding many of the issues explored during our hearings, 
including strategies to prevent flight crew monitoring 
failures, pilot professionalism, fatigue, remedial training, 
access to pilot records, stall training, and airspeed selection 
procedures.
    In addition, the NTSB's probable cause determination for 
the Colgan accident approved by the board on Tuesday included 
among the contributing factors to the accident the flight 
crew's failure to adhere to sterile cockpit procedures. In 
fact, in four of the last six regional carrier accidents, pilot 
performance and unprofessional behavior have been listed as 
contributory factors.
    I applaud Administrator Babbitt for demanding a higher 
level of professionalism from all those involved in aviation, 
including airline pilots. As the safety regulator for the 
industry and a former airline pilot himself, Administrator 
Babbitt understands not only the trust passengers quite 
literally place into pilots' hands but also the responsibility 
pilots must be ever mindful of while on duty. I look forward to 
hearing from the administrator what specific actions the FAA, 
airlines, and the pilots' unions are taking to improve peer 
auditing and professional conduct.
    In addition, I am interested in updates from the FAA about 
the ongoing regulatory efforts at the FAA to address pilot 
training, record availability, and fatigue. Finally, I am also 
interested in what improvements can be put in place to improve 
air carrier hiring practices and training oversight.
    Since the FAA's Call to Action began last summer, the 
Office of the Inspector General has been reviewing the agency's 
effort, and I look forward to Inspector General Scovel's 
assessment of efforts thus far on the part of the FAA, 
airlines, and unions, as well as continuing oversight of long-
term commitments made during the Call to Action process.
    Lastly, I would like to note the dedicated efforts of the 
families of Colgan Flight 3407. The families' efforts have 
helped this Committee to address key safety issues, and I urge 
our Senate colleagues to pass its FAA's reauthorization bill so 
we may finalize these improvements and send a final bill to the 
President.
    I thank the witnesses for their participation, and yield 
back what time I might have. Mr. Graves was hoping to say 
something for a minute.
    Mr. Costello. Do you want to yield to Mr. Graves?
    Mr. Petri. I would yield to Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    I appreciate this hearing quite a little bit, and I want to 
thank FAA Administrator Babbitt for being here, and the 
inspector general too.
    But in October of last year, we did pass H.R. 3371, which 
is the "Airline Safety and Pilot Training Improvement Act." 
While I recognize this legislation moves in the direction of 
improving pilot training standards, I couldn't support it at 
the time.
    Specifically, my concerns lie with the 1,500-hour minimum 
flight requirement for 3371 that establishes the issuance of an 
Airline Pilot Transport certificate for all crew members. 
Currently, only the captain is required to hold that ATP 
certificate, not the copilot.
    I know all too well that pilot training is a complex 
process and focuses on the quality of pilot education and 
training as opposed to the overall flight hours, and I believe 
it is a more reasonable approach. With that said, I am not 
opposed to increasing the minimum number of flight hours, but I 
think we have serious concerns with the 1,500 hours. I think it 
is simply too much.
    And, look, folks, just so you understand where I am coming 
from, and I am not trying to diminish in any way the losses 
that we have had out here, but myself, I am a 2,000-hour 
commercial pilot, and I have flown with all classes of pilots 
out there in high-performance aircraft. And I know military 
pilots who have 500 hours that I want to put my kids in a plane 
with, and I know commercial pilots that only have 500 hours 
that I trust my kids with. But I also know military pilots who 
have 2,000 hours, and I wouldn't put my kids in a plane with 
them for anything, and I know commercial pilots who have over 
2,000 hours that I wouldn't put my kids in a plane with.
    This is about quality of training; it is not quantity of 
training. And we need to take a serious look at that. Just 
requiring 1,500 hours and an ATP certificate doesn't mean you 
are a fantastic pilot when it comes to some of the complex 
things that you get into when you are flying an aircraft, icing 
being one of those main factors that obviously played a big 
part in the accident that took place.
    Again, I understand where we are going with this, but I 
think it is the wrong direction. And I am a perfect example of 
exactly what is wrong with the process. Again, it is quality of 
hours, and it is the person in the cockpit is who we need to be 
looking at, not the number of hours. That is the wrong 
approach. I want to make sure that the aircraft and airlines 
and our skies and the ground are just as safe as we can 
possibly get it, and that is the reason we need to change this 
focus a little bit.
    Mr. Chairman, I appreciate the opportunity. I thank you for 
having this hearing. I think it is a very important hearing to 
the overall safety of the public out there. And I appreciate 
your letting me make a few comments.
    Mr. Costello. The Chair thanks the gentleman from Missouri.
    And let me just state for the record--and we will get into 
these issues in a little bit. I just want to be clear that H.R. 
3371 does not just deal with the number of hours in order to be 
either in the first seat or the first officer. It does far more 
than that, and we will get into that later.
    The Chair now recognizes the gentleman from Iowa, Mr. 
Boswell.
    Mr. Boswell. Thank you, Mr. Chairman. I would prefer to 
wait for Q&A, but the way the schedule is today, I may not be 
able to be here for that. But I want to make a couple of 
comments.
    First, thank you for doing this. I think Mr. Graves made 
some good points that I agree with. I think he is saying don't 
knee-jerk, and I don't think you are going to. We have 
discussed, we went to--we flew together and talked and so on, 
and I think you are on the right track.
    I think we have to leave flex room here. I don't want to 
push, for example, general aviation back because of us going 
too far too fast and so on. We have to walk through this, and I 
think that is what you intend to do.
    And, depending on how they accumulate the experience, we 
all know, it makes a lot of difference. You know, the 250-hour 
commercial pilot, if he went right through a program and, you 
know, did everything one right after the other, he is pretty 
darned proficient versus a person who it maybe took him 2 or 3 
years. And there is a difference. I mean, there is. I used to 
be an IP, and I am sure you did too. It makes a difference.
    And so, as we think about how we get these folks safer and 
more proficient and so on, why, somehow, if you can, if you can 
have some flexibility in there because of the way they obtain 
the experience. You know, Mr. Chairman, it may take 850 hours 
for some situations, or it may be more. Who knows? But then, in 
other situations, if this is tailored where they can be 
intensified and follow right through day after day and then go 
right out into the field and start executing and using that, it 
makes a big difference. So I would hope that somehow you can 
keep that flexibility in there. And I think you can; I think it 
can be done.
    So, you are heading the right way. I read some of your 
statements there, and I think that you are on the right track, 
and this is good. The public wants it. I want it. The Chairman 
wants it. We all want it. So, thank you very much.
    Mr. Costello. The Chair thanks the gentleman from Iowa.
    Let me inform Members and our witnesses that we have been 
called for votes. We have 13 minutes left in the vote. What I 
intend to do is to recognize Ms. Titus from Nevada and Mr. 
DeFazio from Oregon for brief statements, and then we will 
break. We will go to the floor to vote, and then we will come 
back and go right to our witnesses.
    So I would ask Members other than Ms. Titus and Mr. DeFazio 
to enter their statements into the record.
    And, Mr. Graves, your statement that you have given us will 
be put into the record as well.
    Mr. Costello. The Chair now recognizes Ms. Titus.
    Ms. Titus. Well, thank you very much, Mr. Chairman. I would 
just like to begin by saying how pleased I am to be able to 
join this important Subcommittee.
    Tourism is a critical part of southern Nevada's economy, 
and ensuring safe and efficient travel at McCarran Airport and 
around the country is just critical to our tourism industry and 
to our local economy, and that is why it is important for me to 
serve on this Committee. So I look forward to working with our 
Members to ensure that civil aviation is safe and that the 
aviation community in Las Vegas has the resources that it needs 
to shuttle tourists and visitors. We like them coming to Las 
Vegas, back and forth.
    Today's hearing is critical as we work to reassure these 
travelers the Federal Government is doing everything possible 
to enhance aviation safety. The Colgan Air accident last year 
brought to light some of the flaws that exist in aviation 
safety. And I appreciate that the FAA has detailed these flaws 
in its Call to Action plan on airline safety and pilot 
training.
    So I am looking forward to hearing from the witnesses as we 
address the issues of pilot flight time and fatigue, pilot 
training, professionalism, and safety, so that we can do all we 
can to protect the public and assure them that that is, indeed, 
the case.
    So I would thank our witnesses for being here today, and I 
look forward to coming back and hearing what you have to say 
that the FAA is doing along these lines.
    And I thank you, Mr. Chairman, for this opportunity.
    Mr. Costello. I thank the gentlelady from Nevada.
    I now recognize the gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Chairman, I am pleased to have an administration and an 
FAA that is acting in the spirit of the law that was amended 
after the tragic crash in Florida a number of years ago during 
the Clinton administration.
    Prior to that, I had been arguing for more than a decade 
that the FAA could not both regulate in the public interest and 
assure safety and promote the industry. Unfortunately, even 
after that horrible accident and I got the law changed finally, 
there are some within the agency who still think it is their 
duty and there are some in Congress who think it is their duty 
to promote the industry. No, we are here, first off, to assure 
safety, and then, secondly, we want to have a healthy industry 
that is safe.
    And, just hearing the earlier comments regarding quality 
versus number of hours, I have been raising the concern since, 
you know, the early 1990s that I don't believe that you can 
provide, no matter how high the quality is, an adequate amount 
of training for a commercial pilot in difficult conditions with 
the minimums we have today. And there are a heck of a lot of 
carriers who believe that, too, because they won't hire someone 
with that number of hours. But there are the low budget 
carriers, which drive the industry down to the lowest common 
denominator of operators who will hire pilots with the bare 
minimum of training. And there are those who will defend that 
practice. It has to end.
    You know, I still don't believe, as I said then, that to be 
a manicurist in Oregon requires twice as many hours of training 
as the current minimum training requirement to be a pilot. So I 
don't want to hear people say, "Oh, well, we just can't mandate 
higher minimum hours. We just want to look at quality." No, it 
is hours and quality. And quality will come with more hours and 
comprehensive well-thought-out training.
    So I am fully in support of what the Chairman has proposed 
and where it seems the Administrator is headed. But we are 
going to continue to push to make sure we get there, because we 
know there is tremendous pushback from the industry. I mean, 
even those who will only hire pilots with an extra number of 
hours of training have a little farm team out there, which is 
the low-budget carriers, and then some of the big carriers like 
the low-budget carriers because they drive against their 
competition of people who are trying to provide higher-quality 
regional air service.
    And we should never have another tragic event like we had, 
I mean, you know, that crash of Colgan Air. I mean, what kind 
of training could a pilot have with a stall warning, you know, 
to pull the nose up? You know, that is beyond belief.
    So we have to fix these problems, and it is going to take 
both more hours and better quality. And I support any efforts 
that will get us there. And they are going to cost something, 
but what I always say is I have never met someone at 40,000 
feet who is thrilled that they saved a dollar on their ticket 
because their pilot up front is just learning how to fly.
    Thank you very much, Mr. Chairman.
    Mr. Costello. I thank the gentleman, and the gentleman's 
point is well-taken. And the point that I made, that our bill, 
H.R. 3371, just does not deal with increased number of hours. 
It deals with comprehensive preemployment screening and a lot 
of other things. So I appreciate the gentleman's comments.
    We have five votes on the floor right now, so I would ask 
our witnesses and everyone else that wants to come back to 
return to the room by 11:10, if you want to get a cup of 
coffee. And we will resume the hearing at that point and go 
directly to the testimony of Administrator Babbitt and General 
Scovel.
    So, at this time, the Subcommittee is in recess until 
11:10.
    Mr. Costello. The Subcommittee will come to order. The 
Chair again welcomes Administrator Babbitt and also General 
Scovel to the Subcommittee hearing today.
    Administrator Babbitt, let me say that I am frustrated, as 
are family members and others, with the time that it is taking 
to move forward with some of the provisions on our bill, H.R. 
3371, and the time that it has taken the FAA to work through 
the process. Now, having said that, let me say that I have 
worked with a number of administrators over the past 21 years, 
and I spoke to an organization this morning that said I believe 
that we have an administrator now that is trying to move the 
agency forward and to do the right thing.
    I hope that in your testimony, which I have had a chance to 
review, that you will address some of the issues as to why it 
is taking the time that it is taking, and to talk a little bit 
about where we go from here.
    So with that the Chair now recognizes Administrator 
Babbitt.

TESTIMONIES OF HON. J. RANDOLPH BABBITT, ADMINISTRATOR, FEDERAL 
AVIATION ADMINISTRATION; AND HON CALVIN SCOVEL, III, INSPECTOR 
      GENERAL, UNITED STATES DEPARTMENT OF TRANSPORTATION

    Mr. Babbitt. Well, thank you, Chairman Costello, 
Congressman Petri and Members of the Subcommittee. First, I 
appreciate your confidence and your opening statement. I also 
would like to thank you for inviting me here today to provide 
you with an update on the FAA's call to action on airline 
safety and pilot training. Given the recent NTSB hearing on the 
Colgan accident and this being the 1-year anniversary of that 
tragedy, this gathering is especially timely.
    One of the misconceptions that I would like to address this 
morning is that the FAA's actions are either ineffective or 
insufficient. I really believe this is a disservice to the 
hard-working safety professionals who have been working 
tirelessly on these as well as other safety issues.
    Obviously, since I have become the administrator, I have 
seen firsthand how dedicated the FAA workforce actually is. I 
have also spent quite a bit of time trying to figure out what I 
can oh do to promote a better, more accurate understanding of 
what we do and the safety impact that it actually has.
    I am well aware that there is always room for improvement 
as well, but the vehemence of the criticism the FAA receives 
does not comport with the safety statistics. I believe that one 
reason for this misconception is that the FAA seems to be 
measured primarily by how long it takes us to issue and 
finalize rulemakings. And while I appreciate the importance of 
regulation, the rulemaking process is a deliberative one, and 
that, by definition, can take quite a bit of time. I think the 
criticism also fails to take into account the many other tools 
that the FAA has that result often in relatively immediate 
safety improvements.
    When Secretary LaHood and announced the call to action last 
year, one of the repeated criticisms that I heard was that we 
were not compelling action, we were requesting voluntary 
action. I think I attempted to make clear at that point, we 
were working to build a consensus on what should be done to 
improve safety and professionalism and ask the industry and all 
the professionals to work together to get it done as soon as 
possible.
    I explained at that time that requesting voluntary action 
was, in my opinion, the fastest way to move forward, and I 
wanted the most immediate results that I could get. I also told 
the Committee that I thought the best approach for receiving 
faster results was to achieve consensus and move forward on 
those wherever possible.
    I sensed some skepticism at that time and I continue to get 
complaints that we failed to live up to our initial goals. But, 
again, I am concerned that no one is taking into account the 
benefits that we actually have achieved and the progress that 
we have made as detailed in our final report.
    Chairman Oberstar charged me to use my bully pulpit, if you 
would, to influence actions of the industry, and that is 
exactly what I tried to do. In the aftermath of the call to 
action, the FAA initiated a two-part focused inspection of air 
carrier flight crew member training, qualification and 
management practices. FAA inspectors observed 2,419 training 
and check events during the evaluation.
    At the start of the evaluation, 76 carriers had systems 
that complied with remedial training requirements, 15 carriers 
had some component of remedial training and 8 carriers didn't 
have any remedial training provisions whatsoever. Those that 
lacked any component of remedial training were identified by us 
as having greater risk, and, therefore, they warranted 
additional scrutiny.
    Today, seven months after the call to action, all carriers 
that were evaluated have some component of remedial training. 
With respect to FOQA, 11 FOQA programs have been approved since 
July of 2009 and one application is currently pending.
    Similarly, three of the carriers that did not have any ASAP 
reporting programs, now have an ASAP for at least one employee 
group in place, and four other carriers have established 
additional ASAP programs for additional employee groups.
    We also asked air carriers to meet with their smaller 
partner airlines to exchange safety practices and to encourage 
the adoption of best practices. FAA is encouraging the 
carriers, they are doing it and we are encouraging them to 
continue to meet with their partner airlines periodically, and 
to ensure a continuous exchange of information. As I sit here 
today, I am pleased to tell you this is currently happening now 
at all scheduled airline carriers that have regional partners.
    In addition, the ATA Safety Council has now included the 
safety directors from the National Air Carriers Association, as 
well as the Regional Airline Association in their quarterly 
meetings.
    There are many other examples of recent accomplishments 
that I hope to mention during the course of this hearing, but I 
would like to announce the agency's advanced notice of proposed 
rulemaking on crew training requirements, which was posted on 
the Federal Register's Web site this morning. I look forward to 
hearing from the industry and the public on the range of issues 
that we need to consider as we move forward.
    As I have stated repeatedly, there is a difference in my 
mind between knowing that a pilot has been exposed to all 
critical situations during targeted training versus assuming 
that simply flying more hours automatically will provide that 
exposure.
    Unlike some things in life, safety is not a game. It 
doesn't have a goal line. We reach one goal only to set out for 
a new one. Safety professionals do not cross a goal line and 
claim victory. We are forever searching ways, new ways, to 
advance safety through technical and procedural improvements, 
as well as through a continued emphasis on professionalism.
    And just because the final report on the call to action is 
issued, doesn't mean that our efforts will stop. No one should 
assume that. They shouldn't even assume they will slow down. I 
have been very gratified with the response that I have received 
to this effort, and I think the collective efforts of the FAA, 
the airlines, the labor unions involved and, of course, our 
friends here in Congress will continue to work together, and I 
am certain that it will result in implementing advance best 
practices, transferring of pilot experience and achieving an 
overall improvement in airline safety.
    Mr. Chairman, this concludes my remarks, and I would be 
happy to answer any questions that you or the Committee may 
have.
    Mr. Costello. Thank you, Administrator Babbitt.
    Mr. Costello. The Chair now recognize the Inspector General 
for the Department of Transportation, General Scovel.
    Mr. Scovel. Mr. Chairman, Ranking Member Petri, Members of 
the Subcommittee. Thank you for inviting me here today to 
discuss the status of FAA's efforts to improve air carrier 
safety. After last year's Colgan accident, FAA took swift 
action by creating its call-to-action plan.
    FAA has made progress in implementing the plan's 10 
initiatives, including holding safety forums across the 
country. However, progress has been slow in implementing 
initiatives with the greatest potential to improve safety, 
specifically those related to pilot fatigue, training and 
professionalism, and efforts to strengthen air carriers 
voluntary safety programs. My testimony today focuses on 
concerns related to these initiatives.
    To address concerns about pilot fatigue, FAA established a 
special rulemaking committee to propose new crew rest 
requirements. The committee met its September 2009 deadline. 
However, FAA missed its milestone to issue an NPRM by December 
2009 and now plans to issue it this spring. However, if past is 
prologue, the new rule could be years in the making. Numerous 
attempts to update these requirements, which were last modified 
in the 1980s, have failed due to disagreements among FAA 
airlines and pilot unions.
    FAA is facing similar challenges with revising crew 
training requirements. FAA issued an NPRM on the new 
requirements over a year ago and received over 3,000 pages of 
comments. FAA now plans to issue a supplemental notice in the 
very near future.
    At the same time, FAA's reviews of air carriers' flight 
crew training and qualification programs lacked the rigor 
needed to assess effectiveness. We questioned the thoroughness 
of these reviews because FAA did not provide specific criteria 
to inspectors, many of whom had never assessed remedial 
training programs for pilots.
    FAA surveillance questions also raised concerns, as a 
number we're not relevant to many air carriers' operations. 
Moreover, some questions were not comprehensive enough to 
detect flaws in training programs. For example, while 
inspectors observed more than 2,400 pilot evaluation and 
training events, there were no questions on whether pilots 
completed the evaluations successfully, a key measure of a 
training program's effectiveness.
    FAA has also been slow to address concerns regarding a lack 
of pilot professionalism, an issue raised by NTSB in four of 
the last six fatal accidents involving regional airlines. To 
better ensure pilots adhere to professional standards and 
flight discipline, FAA plans to implement a mentoring program. 
However, FAA has not specified how or when it will accomplish 
this. While professionalism cannot be mandated, FAA can take 
actions such as expediting training and fatigue rulemakings and 
facilitating communication between mainline and regional air 
carriers that would directly impact pilot performance.
    Another key goal of FAA's call to action is to expand 
regional carrier participation in voluntary safety efforts in 
areas such as pilot records and voluntary safety programs. 
While FAA requested commitments from air carriers, its progress 
toward completing this initiative has been mixed. Specifically, 
80 carriers responded to FAA's request for safety improvements, 
but many were vague as to the actions they plan to take and 
their timelines, and 14 did not commit to expand their pilot 
record review during the hiring process.
    With regard to FOQA and ASAP, the most important voluntary 
safety programs, 22 carriers responded that they did not plan 
to implement FOQA, and 8 stated they would not implement ASAP. 
While cost, equipment availability, and fleet size present 
significant obstacles for smaller regional air carriers to 
implement voluntary safety programs, FAA has not presented any 
plans to encourage carriers to establish these important safety 
programs.
    Further, FAA failed to follow up with carriers to ensure 
their planned actions will effectively meet safety goals or 
that the carriers will set completion milestones. FAA also did 
not follow up with those carriers that submitted vague 
responses or no response at all. Yet, FAA concluded this 
initiative achieved its intended outcome.
    Before closing, I would like to note other critical safety 
concerns highlighted during hearings after the Colgan crash but 
not addressed in the call to action plan. These include pilot 
domicile, differences in pilot training and hiring, and pilot 
experience and pay. These issues present significant challenges 
for FAA, Congress, and industry stakeholders in determining the 
nature and extent of actions needed.
    At the request of Congress, we are reviewing the potential 
impact these issues have on pilot safety and plan to report our 
findings later this year.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions you or Members of the Subcommittee may 
have.
    Mr. Costello. Thank you, General Scovel.
    Mr. Costello. Let me ask you to elaborate on one of the 
final points you made. You indicate in your testimony that 
while FAA received written responses from 80 of the 98 
carriers, many were only partial commitments or no commitment 
at all. In addition, we found many carriers responses were 
either vague and lacked detail as to actions and timelines or 
stated that they did not intend to take any action.
    I guess, Mr. Scovel, before I ask you to elaborate, I would 
ask Administrator Babbitt to respond.
    Mr. Babbitt. Yes, sir. I think we need to be cautious with 
the numbers that we are talking about. That 82 percent 
represents 99 percent of all the passengers carried in this 
country.
    Also, FOQA is a program for gathering data, comparing it 
across a fleet and looking for trends. That is the purpose of 
FOQA. If you have only one or two aircraft in a fleet, bluntly 
speaking, the logbooks provide that trend for you. You don't 
need to gather data.
    And so what we have seen of the experience of the carriers 
not participating, it is for the most part people who have 
small fleets or older airplanes that simply don't have the 
capability to provide that data in a digital format to be 
gathered.
    Mr. Costello. Would you agree with that, General Scovel?
    Mr. Scovel. Mr. Chairman, I will acknowledge the validity 
of Mr. Babbitt's statement that FAA's air carrier commitment 
initiative covers the majority of aircraft in operation in the 
country today. Our point has to do mainly with FAA's lack of a 
follow-up effort in response to the air carrier commitments. 
What the administrator had asked for was that all recipients of 
his request respond to him.
    And of the 80 who responded, our analysis showed with 
respect to the most important aspects of that request, pilot 
records, 14 carriers either didn't commit or submitted letters 
that did not state their intention on this issue. One carrier 
stated that it already had a rigorous pilot selection process, 
and another carrier stated that it complied with PRIA, which, 
in fact, was not the subject of the Administrator's request.
    One carrier, most interestingly, remarked to us when my 
team was on site at their location, that while they appreciated 
the FAA's desire to expand pilot records review for utility 
during the hiring process, they wondered why FAA purged records 
of accidents and incidents at the 5-year mark, because that 
carrier thought that that information might be valuable to it 
in making hiring decisions.
    Now we realize that there may be statutory or regulatory 
requirements to purge records at designated intervals, but 
recognizing that carriers may be hungry for that information, 
we would encourage the agency to do what it could to honor 
their request.
    With regard to voluntary safety programs, FOQA being one, 
25 of the 80 carriers responded to the agency that they did not 
plan to implement or they gave a nonspecific response. Again, 
given the importance of FOQA to aviation safety, acknowledging 
that NTSB just this week recommended that FAA mandate the 
implementation of FOQA in all carriers we would expect the 
agency to follow up with those carriers that submitted 
insufficient responses.
    With respect to ASAP, 11 carriers signaled to the 
administrator that they did not plan to implement it or 
submitted nonspecific responses. Again, ASAP has been held up 
by FAA as a key cornerstone of aviation safety and its record 
among the major carriers has been quite good. We would expect 
the agency to follow up, even down to the smallest carrier, in 
an attempt to further increase every aspect of aviation safety.
    Finally, with regard to contract provisions, and this was 
the question that the administrator asked, does the carrier 
have procedures in place to ensure that regional and main line 
carriers are sharing best safety practices? Fifteen carriers 
either did not respond or submitted unclear responses. Again, 
we would hope that the agency would follow up.
    Mr. Costello. You know, just a few weeks ago, I heard an 
interview, someone interviewing President Obama, and he was 
asked to grade himself on his first year in office. Let me ask 
you to grade the FAA. You have talked about the positive 
things, some negative things, some challenges, what grade would 
you give the FAA at this point on the call to action?
    Mr. Scovel. On the call to action, sir, as our statement 
makes clear, we would regard it with mixed success. If you were 
to press me for an actual grade, and I have resisted that in 
hearings in the past, I would have to tell you, sir, that I 
would grade it incomplete.
    I certainly wouldn't grade it pass/fail at this point 
because, as Mr. Babbitt has acknowledged, very much needs to be 
done. I couldn't rate it an A, a B, or even a C. I would have 
to give it incomplete at this point. I do want to acknowledge 
that the FAA under Mr. Babbitt's leadership has signaled an 
intent to engage on two of the most important initiatives and 
that is the rulemaking having to do with fatigue and the 
rulemaking having to do with crew training.
    On fatigue, sir, we are in a fix. As you pointed out in 
your opening statement, we are working now under a rule that 
was promulgated in 1985 based on medical science that is even 
older than that. Since that rule was issued, much medical 
research has been done by FAA itself and by NASA at the request 
of the Congress and funded accordingly. Yet the current rule 
doesn't incorporate that.
    Despite the effort in 1995, which met vociferous resistance 
from the industry, FAA, in the intervening years, 15 years 
until Mr. Babbitt arrived, chose not to engage on this front. I 
give great credit to Mr. Babbitt for signaling publicly in the 
call to action that he is going to press home on fatigue and 
crew training requirements.
    That said, as our statement makes clear, we would take 
issue with how FAA designed, implemented, and followed through 
on a number of its initiatives to include attention to the 
professionalism matter, the initiative attempted to do that 
through mentoring. Second, the air carrier commitment to its 
most effective safety practices, I discussed that in the last 
question, sir, and finally on the focused inspection initiative 
which yielded, we think, some important information for the 
agency but because of flaws in the design and implementation, 
and specifically some lack of guidance to inspectors who were 
designated to carry it out, lost some of its impact. So for 
those reasons, sir, I would have to give it an incomplete grade 
at this point, recognizing that there is room to improve and 
time to do so.
    Mr. Costello. I thank you. The Chair now recognizes the 
Ranking Member, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman, I think 
Inspector Scovel in his testimony made reference to the fact 
that in four of the last six fatal accidents, there was a lack 
of pilot professionalism and performance that was cited as a 
contributory factor, and I would like to ask Administrator 
Babbitt, what is in the works to deal with that problem?
    Mr. Babbitt. Thank you. As I stated in my testimony, in our 
call to action, one of the things we did, we had 12 meetings 
around the country that were well attended. And from those we 
also called in both the air carriers themselves as well as 
pilots unions. I have already had one meeting just with the 
leadership of the pilot unions representing about 95 percent of 
all the commercial pilots in this country. We are scheduled for 
another meeting next week.
    I do appreciate the concern, that some of these things are 
moving less quickly than some would like, but I would have to 
remind everybody that the industry didn't get to this state 
where we see serious gaps in professionalism and in the cockpit 
overnight. It took years and it is going to take years to bring 
it back.
    And I am pleased to tell you that I have had a wonderful 
response. I could cite, and if you would like, I would submit 
for the record. I received a report from the Air Line Pilots 
Association that they have now done a university outreach 
program.
    I have with me here, a publication by the Independent 
Pilots Association, the pilots that fly for UPS. This is a 
special publication issue devoted entirely to professionalism. 
On the back is the code of professionalism. This was never 
printed or circulated before this.
    Several of the carriers have done this. I have been asked 
to submit pieces on professionalism to several different 
individual pilot unions. So I would say we have gotten their 
attention and I would say they are taking very, very proactive 
actions, working with us and working with their companies. So I 
am actually very pleased.
    And, to be candid, it is difficult for me to understand why 
people can't see some of the positive, actions that are 
resulting from this.
    Mr. Petri. Well, I certainly would agree that we need to be 
focusing on and working hard for years to maintain professional 
standards in the cockpit, but I hope it doesn't take years to 
achieve those standards because people are going to be flying 
in meantime, and we want them to be flying under professional 
conditions.
    Mr. Babbitt. In addition, if I may, the carriers have 
indicated, several of them, that they are working with their 
pilot groups to revise the transition training when a pilot 
goes from being a senior first officer to a captain, and 
refresher training for captains, to reinforce professionalism. 
It is their duty, it is their obligation, and it is something 
you see in a lot of places. Sometimes people just have to be 
reminded and the training revised to put it in front and center 
of them. And I am pleased to see both carriers and their pilots 
recognizing that and working together to help achieve overall 
safety.
    Mr. Petri. General Scovel, we have been wrestling with the 
area of sterile cockpit rules here. The violation of those 
rules have been a notable factor in both the Lexington and 
Buffalo accidents and have prompted the National Transportation 
Safety Board to recommend the FAA take action to prevent 
further violations of those rules.
    What specific steps might be taken to step up enforcement 
of sterile cockpit conditions?
    Mr. Scovel. You raise a very interesting point, Mr. Petri, 
because while it is often said that professionalism cannot be 
mandated--and I fully agree with that--it is a concept. When 
you take apart that concept and recognize that there are 
discrete behaviors, whether they relate to fitness for duty, 
training, the obligation to behave professionally in the 
cockpit, those discrete behaviors can be regulated, not to say 
that they always should be.
    Sometimes the voluntary or consensus method is the way to 
go, and those should always be impressed and reinforced, but 
sometimes enforcement methods should be in place. I am not in a 
position now, because I don't have a body of work, frankly, on 
which to speak, but I would say that we have instances that are 
common knowledge where we can say that--some enforcement 
methods have been put in place.
    For instance, a professional pilot will not report to work 
under the influence of alcohol. Do we rely on the judgment of 
that individual to sustain that standard? No, we have got a 
bottle the throttle rule.
    The professional pilot doesn't report for work overly 
fatigued. Again, do we rely on individual initiative or 
judgment? No. For the benefit of that pilot and his or her 
employer, we have crew rest requirements.
    There are a number of other actions. When we get to sterile 
cockpit, that is going to be a tough one. NTSB, in its Colgan 
report just this week, tried to address these points when it 
recommended workload management training, leadership training, 
and a complete FAA-required ban by the carriers on personal 
electronic devices in the cockpit. Those are the kinds of 
enforcement reactions that can occasionally be necessary.
    I would urge this analytical framework, if we were 
contemplating enforcement, what is the nature of the problem? 
What is the extent of the problem? What is the danger to safety 
if the problem continues? What alternatives are there to 
address it. Disadvantages and advantages to those alternatives? 
My office, GAO, and a few others in government, can help this 
Committee and the Secretary identify those, and it becomes a 
policy question thereafter.
    Mr. Costello. I thank you. Mr. Petri had to go to vote in 
another Committee. He will return very shortly. Let me just 
comment, and then I will call on other Members to ask 
questions.
    Administrator Babbitt, you indicated that we didn't get 
where we are overnight, and it may take years to bring it back. 
I understand we didn't get where we are overnight, but I don't 
agree that it is going to take years to get it back, and that 
is one of the reasons why we introduced H.R. 3371, because of 
our fear that it would take so long through the rulemaking 
process to address some of these issues.
    And we are not just talking about the ATP, the requirement 
for additional hours, it is both the qualitative training and 
experience needed to be a pilot, and you have covered that many 
times. But in our legislation we provide comprehensive 
preemployment screening, pilots, including assessment of 
skills, aptitude, airmanship, suitability for functioning, the 
airline's operational environment.
    We raised the minimum requirement, of course, to the ATP, 
which there is some agreement on, but there are a number of 
other things that pilots must receive training, function 
effectively in an air carrier operational environment, adverse 
weather conditions, including icing, high-altitude operations 
and multi-pilot crew. Those are things that need to be 
addressed, and that should not take years to bring us back.
    That is why we acted so quickly to introduce this 
legislation after this tragedy. That is why we did it in a 
bipartisan way and passed it through the Committee and through 
the House of Representatives.
    Unfortunately, it has been pending in the other body, like 
many other things, and we hope that very shortly they will take 
this legislation up too so that we can hammer out whatever 
differences we may have and come up with a bill that addresses 
many of the needs that need to be addressed sooner rather than 
later, and I think you agree with that.
    With that, the Chair now recognizes the gentlewoman from 
Nevada, Ms. Titus-- Ms. Titus went to vote in another 
Committee, I am told, so she will return.
    The Chair recognizes the gentleman from Michigan, Mr. 
Schauer.
    Mr. Schauer. Thank you, Mr. Chairman, very much. Thank you, 
gentlemen, for testifying. I have two very distinct and 
different questions and the first one I would ask, Mr. Babbitt, 
if you could take just a short amount of time to address. My 
district, and Battle Creek, Michigan, is the home of Western 
Michigan University College of Aviation, I think the finest 
university-based pilot training program.
    How are the call to actions recommendations integrated into 
university pilot training programs, and will today's notice of 
proposed rulemaking provide them an opportunity to offer 
alternatives, and you can both respond to that briefly, if you 
would light like.
    Mr. Babbitt. Yes, sir. To answer, number one, as I 
indicated, several of the pilot associations have started an 
outreach so that you can begin to train young pilots on the 
value of professionalism and have living examples right in the 
classroom doing guest-speaking appearances, helping with the 
curriculum. I know several of the pilot organizations are part 
of a board that sets curriculum. And so we have encouraged 
that, and I am pleased to see that they are actually engaging 
in that.
    Second, the proposed rulemaking that we have out, the 
advance notice, certainly recognizes the variance. And I would 
note here for the record that we were discussing this prior to 
the point in time when people began to focus on this. I was 
concerned, myself, that a commercial pilot's license was not 
sufficient training or previous qualifications. Having a lot of 
light shown from this accident and others I felt we needed to 
improve.
    So we have tripled the number of hours in our advance 
notice of proposed rulemaking, I think we are seeking comments 
on 750 hours, and we added a number of very key elements so 
that a pilot would be trained with today is high fidelity 
simulations, and the schools can teach the academic side of it. 
The pilots today come out with training and academic exposure 
to management of energy.
    These are large machines, hundreds of thousands of pounds. 
And stopping them on a runway requires some knowledge of how 
you manage all of this energy. All of these things are in the 
curriculum. We have not ruled out anything. Perhaps one of the 
solutions is more time or more training interchangeably, but we 
certainly offer and welcome the academic community to comment 
for us.
    Mr. Schauer. Thank you. I appreciate that.
    Being from Michigan, as you know, we nearly had a terrible 
tragedy over Detroit on Christmas. I know our time is very 
limited. And your testimony talks about accidents and airline 
safety. There are other serious threats involving airplanes in 
the air and on the ground.
    And there has been a great deal of media attention 
continuing in my State on what happened. I don't think we know 
yet, but I wonder if you could at least comment briefly on the 
FAA's jurisdiction over this type of incident in the air and on 
the ground and the protocols involved, including on the 
ground--I am sure you have been following that--and whether you 
can comment as to whether those were followed in the air and on 
the ground.
    Mr. Babbitt. Yes, sir. You are referring to the flight with 
the attempted terrorist.
    Mr. Schauer. Flight 253.
    Mr. Babbitt. Flight 253. Yes, sir, we, of course, 
obviously, controlled that flight through air traffic control 
procedures, the controllers. The aircraft landed. They 
indicated they had a problem. There was a communication gap 
between the cabin and the flight deck crew. The flight deck 
crew reported that they had someone who had attempted to set 
firecrackers off. So it didn't elevate to anyone, whether it 
was the cockpit or air traffic control, to anything of great 
seriousness at that point.
    However, it began to escalate, and if you follow the 
timeline, we have a very robust system set up with Homeland 
Security, the Transportation Security Administration. All of 
those procedures were tracked, followed. We isolated the 
airplane as soon as it was known to us what we were dealing 
with.
    We also then began very quickly to expand notification. 
Using our communication system, the domestic events network, we 
reached out to all of the carriers in the country, explained to 
them what was going on, and set up procedures so that either we 
or they could contact their crews to put them on alert of the 
situation as it developed.
    Mr. Schauer. Thank you. Within the jurisdiction of this 
Committee, I look forward to further opportunities to talk 
about that. And I know there are multiple agencies with 
multiple jurisdictions. The Chairman has been very helpful. We 
immediately had a closed briefing on the matter involving a 
number of agencies. But it is of grave concern. I thank God 
there wasn't a loss of life in that situation, and hopefully 
this will be another incident that we can learn from.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman from Michigan 
and now recognizes the gentlelady from West Virginia, Ms. 
Capito.
    Mrs. Capito. Thank you, Mr. Chairman.
    I thank the gentlemen for their testimony.
    As we know, it has been a year. And I have met with many of 
the family members who are here today who have suffered a 
tragic loss, and are moved by their effort to make the skies 
safer. So we join with them, and I certainly hope that we can 
push the Senate to pass this bipartisan "Airline Safety and 
Pilot Training Improvement Act."
    First of all, I would like to say, Administrator Babbitt, I 
am from West Virginia, and I would like to thank you and your 
agency's cooperation. As you know, last month, a U.S. Airways 
flight overran the runway, which you don't want to do in West 
Virginia because we are situated on the top of a mountain. We 
had 30 passengers and three crew members. But because our 
airport had an EMAS, which is an Engineered Material Arresting 
System, a new technology, that halted the plane on the ramp and 
saved a lot of lives and a lot of injuries. And I know that the 
FAA has helped with us in getting the rapid rebuild of that 
system at our airports. So thank you for that.
    Two things I would like to ask about: the commuting thing 
that we talked. We learned in the tragic accident the commuting 
times of the pilots. One, in particular, was very lengthy and 
questionable, leading to fatigue. You mentioned commuting, but 
is it possible to quantify the possible hazards of commuting? 
And how are you facing this and how are you interfacing this 
with the conversation I had with my regional air crew members 
on Monday, that this is going to be an issue that is going to 
be very difficult for them as they try to hold their job and 
live in different areas?
    So, a response.
    Mr. Babbitt. Well, the primary focus that we have is on 
crews being rested. We want every crew to show up for work both 
mentally and physically prepared to go to work. And that is 
without exception. That is the charge, that is the challenge, 
and it is our responsibility, a shared responsibility with the 
crews, to make certain that happens.
    There has been some focus on the fact that pilots do 
commute, and that happens. Different carriers handle it 
different ways. We are literally on the brink. We have 
discussed a little bit of the delay issue. It took somewhat 
longer, not dramatically longer. I sat in this very chair in 
1992 and testified on this very subject for the Airline Pilots 
Association, so I appreciate how long it has taken. But we are 
talking about a delay that is measured in weeks, not years, so 
we are very close.
    And our proposal, our notice of proposed rulemaking, will 
include a provision where we will seek comment on, what do 
people believe is the appropriate thing? How can we limit this? 
I can give you lots of letters that I have received on both 
sides of this argument. It is a serious issue. But we are 
focused on fatigue and management of fatigue and recognition of 
fatigue. And we have several ideas as to how to deal with that.
    Mrs. Capito. Well, I certainly think--you know, I applaud 
you for that. I would like it sooner than later. And the 
fatigue issue, I am certain it is hard to quantify. Certainly, 
individuals have different levels of, you know, sustainability 
with certain hours of sleep.
    The other question that came up repeatedly in the last 
hearing that we had was, were the major carriers mentoring with 
the regionals, more seasoned pilots helping the younger pilots, 
pairing them. I think we had testimony from numerous people who 
said the best way to learn after you attain that license is to 
have somebody right next to you that can show you the ropes and 
help you meet the difficulties of any kind of situation that 
you might be in.
    Is a mentoring program really going to come off here? And 
is it going to be a situation--this is what I fear. It is going 
to be a situation that the main carriers who have the more 
seasoned pilots, the pilots will say, "I will mentor, but it is 
going to cost another extra--I want to be compensated for 
mentoring. You know, this isn't something I am going to 
voluntarily do."
    What is your perspective on that and also on the pilot 
pairing? Either one. Administrator?
    Mr. Babbitt. Sure. The mentoring is a natural event over 
the course of a normal airline. You get hired, you spend a 
number of years flying as copilot, you learn a lot of things. 
And that is part of the mentoring process. That is where the 
experience is built up.
    One of the things that we are trying to do----
    Mrs. Capito. If I can interrupt for just a second, the 
plane I was on on Monday, I don't know who was mentoring who in 
the cockpit there. They both looked like my 25-year-old 
children, quite frankly.
    Mr. Babbitt. Well, the model I described for you is a 
traditional airline that has been around for a long time and 
has senior pilots to mentor the younger pilots.
    One of the concerns today is, quite often, a new airline 
will form in order to provide service for another carrier, and 
every pilot at the airline is new. And, therefore, how do we 
ensure that these pilots have had that exposure?
    Well, we know they meet the regulatory requirements. All of 
them do. So we have asked the carriers--and I am very pleased 
to say that they are all engaging in this. Many carriers in 
this country today, main line carriers that carry passengers, 
now have a program to exchange information among their flight 
ops people with the leadership and the union representatives of 
the other carrier that feeds them as their regional partner.
    We want to see how that develops. Is that providing the 
information transfer that we are looking for? Are there other 
curriculum courses? Should we introduce this into recurrent 
training? All of these are areas, but we all recognize the need 
for it. It is a question of how best to deliver it. We have 
certainly better academic tools today. We have high-fidelity 
simulation today. We have science today that we did not have.
    So we are going to try to find the best ways to achieve 
these goals and work with everyone to do that.
    Mrs. Capito. Thank you.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentlelady from Nevada, Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    I would like to continue the line of questioning that the 
Chairman started.
    Mr. Babbitt, I appreciate your comment that the fastest way 
to implement a safety improvement program is for it to be done 
voluntarily. But, at the same time, I share the inspector 
general's concerns that, when that was the case, that some 
airlines, a lot of them regional airlines, either didn't 
respond or responded in some kind of vague way. So I haven't 
really heard from you what you plan to do next, either through 
the carrot or the stick, to get these other airlines to 
establish these safety programs.
    And, second, I know that many times a program is just 
written and put on the shelf. Do you have any kind of timeline 
or any plans to follow up with those airlines that did submit 
programs to see that they really are being implemented?
    Mr. Babbitt. That is a very good point. And, yes, ma'am, we 
have. First off, remember that we pressed this into service 
very quickly. We wanted a very rapid amount of focused 
attention on everybody in the industry. We wanted to get their 
attention.
    I think, again, a misconception might be that we were going 
to go out and evaluate all of their programs, and that is not 
what we asked to be done. We asked to confirm the existence of 
programs. The follow-on will now be to go back. Now that 
everyone is confirming that, yes, okay, we are going to have 
these programs, the follow-on is to now go back and say, "Well, 
how refined is this program? Are you just filling a square for 
us, or are you actually developing a program?" And we can see 
some of these programs are very robust; some of them aren't. We 
will have to go back with our inspectors.
    Remember what we asked these inspectors, again, to do was 
to confirm that there was, in fact, a program, and they did 
that. We asked them to look at some of the programs. Some of 
the elements of what we were asked to look at simply don't 
exist. So, yes, we did get some answers that said this was not 
applicable or not observable because they may not do that 
particular maneuver at that carrier. So, yes, we got some vague 
answers and things, but you need to put them in the context of 
what our inspectors were looking at.
    I will put something else in context for you. We use a 
system of calculated risk. I was part of a review team that 
went out and reviewed the risk management that we use in this 
country to ensure the safe levels. And so, you know, we focus 
on areas. If someone didn't have a program, we put them on 
notice: You are going to have focused attention. If you don't 
have a program, you are going to be subjected to future 
scrutiny from us. And, of course, that is the stick. They 
usually say, "Well, you know what? Maybe it is a better idea 
that we get a program." And that is exactly what we want to 
inspire.
    Ms. Titus. I would just ask the inspector general to 
comment on that, if you have any suggestions or you think that 
is going to be adequate, or a timeline on which we need to do 
this.
    Mr. Scovel. Thank you, Ms. Titus. I appreciate the 
opportunity.
    I would commend FAA, under Mr. Babbitt's leadership, for 
pursuing remedial training programs.
    I would like to remind the Committee that remedial training 
programs were first suggested in guidance from FAA to the 
aviation industry in 2006. It was suggested, it was put on 
record as guidance at that point. It wasn't mandated.
    Yet, under the urgency of the Call to Action initiative--
which, again, I give credit to Mr. Babbitt for initiating--it 
was discovered that a sizable number of airlines at that point 
didn't yet have remedial training programs. They do now. So 
they have certainly checked the box, to use Mr. Babbitt's 
phrase. They have something on the shelf, to use your phrase.
    And we would encourage FAA diligently to follow up sooner 
rather than later in evaluating the effectiveness of those 
programs. And the guidance that FAA headquarters provides to 
its inspectors in the field will be absolutely key.
    Ms. Titus. Thank you.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentleman from Missouri, Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    Mr. Chairman, I wanted to kind of clarify what I was 
stating earlier, because I still believe this is about quality 
of training and not quantity of training.
    I heard two comments that this isn't just about the number 
of hours, and I agree with that because we have other things in 
here, obviously, high-altitude training, weather training, 
besides being an ATP. But being an ATP, that is the biggest 
limiting factor here, because it takes 1,500 hours.
    And, all due respect to the statement that was made 
earlier, a combat veteran who has 300 hours in a plane and all 
the training in the world isn't just learning how to fly. They 
are a very qualified individual. And I do not want to limit 
this to folks that only have 1,500 hours with an ATP 
certificate. Getting an ATP certificate doesn't make you a good 
pilot. What makes you a good pilot is a whole lot of other 
things that are out there.
    We need to be concentrating more on hiring practices with 
some of the airlines and weeding some of these folks out that 
do not belong in the cockpit. And every person in this room who 
is a pilot knows there are people in the cockpit today who do 
not belong there, and I don't want them commanding an aircraft 
that I have my family on, even if they have an ATP certificate 
and have had high-altitude training and icing training and 
severe weather training and everything else.
    But there are also people out there who have had 500 hours 
or 750 hours who have been trained in some very capable 
schools, who are military trained, who are very qualified to 
sit in the right seat and move along through the process.
    But I understand what we are talking about here, and I know 
it isn't just about the number of hours. But the fact of the 
matter is, that is a huge limiting factor on the folks out 
there who we should have in the cockpit as that backup person, 
as that right-seater.
    Now, as far as a question--that was a statement, 
obviously--I am curious--and I think, Mr. Babbitt, you gave me 
the answer, too. Obviously, just a commercial certificate isn't 
enough, and you mentioned that. Number of hours, total number 
of hours, though, I think you mentioned 750. Did you throw that 
out, or is that actually a recommendation?
    Mr. Babbitt. In our advance notice, I believe that is the 
number we put in. That is three times the amount of time. But 
with that goes a requirement to have a number of training 
elements and academic requirements. So it is not just accruing 
250 times three. It is accruing more flight time and accruing a 
portfolio of education, exposure, high-fidelity training.
    If I could, I will give you an example. In 1974, I was a 
fairly young--imagine that--copilot for Eastern Air Lines, and 
we merged with an airline called CariBair. And Caribair flew 
exclusively out of San Juan, Puerto Rico, all through the 
Caribbean, as you might guess from the name. They integrated 
into our seniority list, and I began to fly with the CariBair 
pilots. They were excellent pilots. I flew with 25-year 
veterans. But I was surprised, when I first went to New York 
with a CariBair pilot who had never seen snowfall on an 
airplane. Twenty-five years of experience, 15,000 hours, the 
pilot wasn't trained for the mission.
    Conversely, we began to fly in their operations. My entire 
life, I had flown the east coast--a lot of weather, a lot of 
approaches. And, suddenly, we are in a day VFR, unradar-
controlled environment. I was not trained for that mission 
either. I had plenty of time, but this is what I am trying to 
shed light on. Just accruing the hours doesn't necessarily 
assure us that you have been exposed to these things. And I 
would tell you, the simplest thing I could say is, sure, 1,500 
hours. Let's just move on, 1,500. I don't believe that. I 
believe that we need more than the 1,500. I am not ruling out 
1,500. I believe people need more training elements, and we 
need to know that they have received them, not that we think 
they received them just because they had a lot of flight time.
    Mr. Graves. Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentlelady from California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    First of all, I would like to commend Mr. Babbitt. I think, 
from the time when you came in, you acknowledged the long 
delays that were clearly not your responsibility and your 
fault; however, you took the responsibility for them and 
committed to begin work immediately.
    And I have been here now a little less than 3 years, and 
that is the most glowing recommendation I have ever heard from 
Mr. Scovel. And I am sure he didn't intend it as a 
recommendation, I understand that. But I think the comments 
acknowledge at least some of the initial work that needed to be 
done.
    In light of that, however, Mr. Scovel, in his testimony, 
has said very specifically that the FAA has not implemented key 
rulemakings on new crew fatigue and training requirements. The 
FAA's special investigations of air carrier training programs 
were ineffectively designed and implemented. And then the other 
key one that I wanted to highlight that he noted is that the 
FAA has missed its milestone for establishing programs to 
improve pilot professionalism.
    And although you have talked about some delays, I think, 
for the American flying public, tolerance is not acceptable, 
and it is not okay to say that we are doing better. We have to 
fix it, and we have to fix it now.
    So, Mr. Babbitt, what would be your response to Mr. 
Scovel's testimony?
    Mr. Babbitt. Well, first, I have a great deal of respect 
for the general, and I have a great deal of respect for their 
observations. I find them very helpful. Obviously, I can't 
watch everything that the FAA does. I have my own goals, and we 
try to do things, and I appreciate that they can put some 
bright lights on some things that we haven't done so well. And 
we take those things that they suggest to us very seriously. So 
I appreciate----
    Ms. Richardson. But do you agree with them?
    Mr. Babbitt. Let me take the fatigue as an example. I came 
to the FAA 4 months after this accident happened. I have been 
here 7-1/2, 8 months. In that 8 months, we have promulgated 
four rules. I have outlined a number of things that we have 
done. And I have really tried to convince people, or at least 
shed some light on, in that 8 months, we are going to release a 
rule here in another month.
    Now, this is a very deliberative process. Rulemaking is a 
deliberative process. Making legislation is a deliberative 
process. The work that NTSB does--this accident happened a year 
ago. It took a year to have the hearing. It is a deliberative 
process. I appreciate what they go through.
    Ms. Richardson. Mr. Babbitt, I apologize. Being a 
relatively new Member, I only have 2-1/2 minutes. And my 
question is, do you agree with Mr. Scovel's assessments?
    And although things do take a while, I will also tell you 
that, as a new Member, I sat, as many of my colleagues did, 
when we got a call from Secretary Paulson and Bernanke, who 
were saying the sky was crumbling and we had to react and we 
had to react in 2 days. So sometimes, depending upon the issue, 
the reaction has to be different.
    So do you or do you not agree with the testimony of Mr. 
Scovel, which is not just limited to rulemaking? And now I have 
a minute and 47 seconds.
    Mr. Babbitt. All right. In 15 seconds, I get an A-plus on 
milestones for professionalism. Training, I get an incomplete. 
And I get a B on fatigue.
    Ms. Richardson. But do you agree with his assessment in 
that area?
    Mr. Babbitt. I agree with some of his assessments, yes, I 
do.
    Ms. Richardson. Okay. We look forward to your immediate 
reaction to them. And I would say I would rather see you come 
to us and be creative and think out of the box and maybe have 
to figure out how we can do things differently. Because I think 
the confidence of the American public is reducing every day 
that we delay, and I think there is room for us to think 
creatively and do it differently. And I would look forward to 
helping you.
    Thank you, sir.
    Mr. Babbitt. Thank you very much. I appreciate that.
    Mr. Costello. I thank the gentlelady and now recognize the 
gentleman from Ohio, Mr. Boccieri.
    Mr. Boccieri. Thank you, Mr. Chairman.
    Thank you, Mr. Babbitt and Mr. Scovel, for attending this 
hearing today.
    Mr. Babbitt, I have spoken to you offline a number of 
times, and I appreciate the professionalism that you are 
bringing to the agency and your sense of urgency to tackle some 
of these big issues that should have been addressed decades 
before your arrival here before this Committee today. And I 
want to just stress some things that I think are very key to 
this discussion that we are having right now.
    Number one, we are talking about pilot experience, and we 
are talking about something that is even proposed in the NPRMs 
by the FAA: to train like you fly and fly like you train. These 
were very experienced pilots, by some measure--5,600 hours 
between them--but even the best pilots, who have hundreds of 
thousands of hours, if they climb into an airplane and they are 
not trained on the safety procedures and the safety equipment 
in that airplane, I don't care who they are, they are going to 
have trouble recognizing and implementing recovery procedures.
    And, in fact, the NTSB report suggests the Q400 check 
pilots interviewed demonstrated instruction of the aircraft 
pusher system is not even part of the training syllabus at 
Colgan Air. In 1991, 2002, 2004, 2005, 2006, 2007, the captain 
of this airplane failed his check rides--incomplete, lack of 
remedial training. This was a tragic accident, but it was 
completely avoidable, in my opinion.
    Since 1973, the NTSB has been required and asking the FAA 
to implement procedures that advises the training and stall 
recovery should go beyond the approach to a stall to include 
stall training/recovery from a full stall condition. The NTSB 
has further said that these are open and unacceptable responses 
by the FAA.
    Now, all this happened before you got there, but the 
inspector general just reported that, over the last year, a 
year later, the FAA has not finalized the rule for training 
requirements as established in the Call to Action.
    Since 1973, the NTSB has had a Call to Action. In the last 
year, nothing has happened, even though in October this 
Congress and the United States House of Representatives passed 
a resolution suggesting that they will recognize and avoid a 
stall of an aircraft, and it will require simulation.
    So I want to know why, after a year, after decades, we are 
not having any movement with respect to this, sir.
    Mr. Babbitt. Well, it is a very valid question. If I can 
take you through the timeline, a year ago January the new 
proposed rules that cover training were submitted and comments 
were taken. The volume of comments was absolutely incredible. 
Three thousand pages of observations came in. And they ranged 
from training procedures, better ideas, questions about what we 
were proposing, lack of technical capability to actually do 
them.
    Simulators don't necessarily do everything that an airplane 
can do. And so, if you ask someone to do this in a simulator 
and the simulator is not capable of doing that, then someone 
would raise their hand and say, "Well, we can't do that because 
the simulator won't replicate it." However, we are on the verge 
of--today's high-fidelity simulation actually can. And I know 
you are a seasoned pilot yourself. We wouldn't put people in a 
real airplane in harm's way.
    I have actually done a full stall in a 777. It is one of 
the most violent maneuvers, I think, I have ever been in in an 
airplane, number one. And, number two, it damages the airplane. 
I mean, you wouldn't ever sell that airplane after you have 
full-stalled it, it is so big.
    But that doesn't mean we can't simulate it, and that is 
what this rule proposes. A supplemental will be going out, and 
I look forward to having that out also this spring and put this 
to bed.
    Mr. Boccieri. We need to put it to bed after decades and 
decades of nonaction by the FAA with respect to this.
    In fact, the NTSB has said that the issues in the Colgan 
investigation are not new ones or unique to regional airlines. 
And, in fact, when they further pressed Colgan as to why they 
didn't even have the safety features of this airplane as part 
of their curriculum, they suggested the FAA didn't require it.
    So, where we have seen these regional airlines who are now 
doing more take-offs and landings than our large airlines 
around the country, where they have met and exceeded them in 
the past, they are now shooting for the minimums. And I find 
this completely unacceptable when the minimums don't include in 
any of the training syllabuses a requirement for understanding 
and recognizing and recovering with the safety features that 
are on the airplane.
    So the Congress is moving. I expect the FAA to move, too, 
sir. And you have done a good job of moving and shaking and 
showing this sense of urgency. But it is very clear in here 
that this will be part of simulation, and we are not going to 
rest until this is now passed. So I look forward to further 
Committee hearings where we press this.
    Thank you, Mr. Chairman.
    Mr. Costello. I thank the gentleman.
    And the Chair now recognizes the gentleman from California, 
Mr. Garamendi.
    Mr. Garamendi. Thank you.
    Being exceedingly new to this job, just 3 months, I 
understand your situation. But when I looked at your name, I 
thought perhaps I had gone back to where I was in the mid-1990s 
with Secretary Babbitt, when I was his Deputy Secretary.
    We did a lot of rulemaking at that time, and it is a 
process that can be exceedingly slow. Have you set out a 
definitive timeline?
    Mr. Babbitt. With regard to the fatigue rule, yes, sir. And 
I will offer you the same apology that I offered this 
Committee. We set a timeline. I asked for a timeline that we 
would have a rule out by the end of 2009. I was overly 
ambitious, and we ran into some technical issues.
    It is an incredibly complex rule. For the first time, we 
are going to take science into consideration. We are taking 
input from both managements that run the carriers as well as 
the pilots themselves and the various unions involved.
    So it took us longer, and we do plan to have it out this 
spring, which will be 8 months from when I indicated we would 
try it.
    Mr. Garamendi. I am really not surprised. My own experience 
at writing rules is that the unanticipated is guaranteed to 
happen, and the delays will always be more than you anticipate.
    Therefore, my question goes to the legislation that this 
Committee has passed, that the House has passed and is now in 
the Senate. Do you support that legislation?
    Mr. Babbitt. I do. If you go through and look at the 
elements that we tried to advance, we certainly took, a great 
deal of guidance from the legislation. We felt that we could, 
perhaps, move these things along.
    I understand that legislation itself is a deliberative 
process. And if we could be moving these things in parallel, I 
expressed privately to the Chairman I would love to say, you 
know, "We just passed all these things, and the FAA got them 
done. Thank you." I would love for that to happen. So we are 
working pretty robustly----
    Mr. Garamendi. So you do support the legislation publicly 
and in the Senate?
    Mr. Babbitt. Well, I haven't been asked by the Senate, but, 
yes, sir, we support the goals that you have set forth here, 
yes.
    Mr. Garamendi. Do you support the legislation then? You do 
support the legislation?
    Mr. Babbitt. Yes, sir, I do.
    Mr. Garamendi. Very good. I think you may find that, as 
slow as the Senate is, it may be faster than the regulatory 
process.
    Mr. Babbitt. Well, what is interesting, I think everybody, 
certainly the inspector general, who I have a great deal of 
respect for, this Committee, everybody, we all have the same 
goal. We all want to improve safety.
    The NTSB can be critical of us from time to time, but I 
respect that. We need that attention. But I would note, when we 
talk about deliberative process, I just got a set of 
recommendations 2 weeks ago on my desk from the NTSB from an 
accident that happened 3 years ago. It is a deliberative 
process for them, too. I just got the recommendations from a 3-
year-old accident.
    So all of us have this process. We would love to move it 
faster. I think we all share the common goal of safety.
    Mr. Garamendi. Well, there are some elements in all of 
these issues that are common and agreed to and for which there 
is relevant information readily available now. Those might move 
ahead while others that have unknowns and need additional 
information may be left out for a later time.
    Are you considering that process as you go through your 
rulemaking proposals?
    Mr. Babbitt. Yes, sir. And I would love to talk to you when 
we have more time, and I would be happy to. But one of the 
things that we have tried to do was take and use, in Chairman 
Oberstar's words, the bully pulpit to get people to do things 
voluntarily with a lot of pressure and with a lot of 
visibility. I published the names of every carrier who didn't 
respond to us. We made them public. You would turn us down at 
your risk if you chose not to comply.
    So we did as much as we could do voluntarily because we 
could do that quickly, and then put many of the things that we 
are trying to do with regulation or with the help of your 
legislation in place. But we wanted to get as much as we could 
done on a voluntary basis because it resulted in immediate 
action.
    Mr. Garamendi. My point, more than that, is, in my 
experience in writing regulations, sometimes it is better to 
separate issues and to write one set of regulations for things 
that can be done immediately for which there is knowledge and 
information and then hold the other piece. Sometimes, if you 
wait for the last piece, there are going to be a lot of dead 
people.
    Thank you.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Scovel, in your testimony where you were talking about 
the special inspections, the air carrier training programs were 
ineffectively designed and implemented, I find some disturbing 
elements in there. And I would like you to expand on them a 
little bit, and then I will ask Administrator Babbitt to 
respond.
    We were talking about responses. It says, "FAA headquarters 
only captures 'no' responses in any roll-up analysis of 
carriers' compliance. A true evaluation of an air carrier 
training program should have included a review of the program's 
effectiveness, not just compliance with requirements," i.e., we 
checked the boxes, but, you know, did it take, did it work, did 
we get the desired result?
    What sort of measures should there be? How would we get to 
measuring the effectiveness? How would the FAA do that? And why 
don't they do it?
    Mr. Scovel. Sir, we have a project under way at the request 
of the Congress to assess FAA's determination of the validity 
of training programs. And we intend to follow up on that point.
    On this key one, I will note two aspects. The first goes to 
a point that Mr. Boccieri raised earlier, and that is the poor-
performing pilot and the pilot in the Colgan crash who 
repeatedly failed certain training evaluations. The direction 
to FAA inspectors in the field in phase 1 of this focused 
inspection initiative was to assess how carriers are able to 
identify, track, and manage low-time pilots and poor-performing 
pilots.
    FAA issued specific guidance to its inspectors in the field 
on how to define a low-time pilot. FAA didn't issue any 
guidance to inspectors on how they should identify whether 
carriers were properly following poor-performing pilots. As a 
result, when my team went out to the field, we found disparate 
approaches between inspectors at different locations. How did 
one team identify poor performers? How did the other? It calls 
into question the validity of that part of this initiative at 
this point.
    Mr. DeFazio. Well, in fact, I think you said elsewhere 
that, in the regional airlines, few of them have an automated 
system to track poor performance and/or prevent pairing of two 
poor-performance pilots. Is that correct?
    Mr. Scovel. That is true for scheduling purposes, yes, sir.
    Mr. DeFazio. And are there requirements coming along that 
are going to make them establish systems since some of our 
regional airlines, the better ones, have figured out how to do 
that? Why do we allow these other substandard programs to 
continue?
    Administrator Babbitt, can you respond to that?
    Mr. Babbitt. Yes, sir. One of the things----
    Mr. DeFazio. I would assume Colgan probably falls in the 
category of not having that program.
    Mr. Babbitt. And you are absolutely right.
    We have a safety advisory for flight operations that 
addresses this and it gives them the basics of this. But what 
our----
    Mr. DeFazio. It recommends or requires?
    Mr. Babbitt. The Call to Action, at that point in time, 
which was, you know, me 6 weeks on the job, the Call to Action 
was to go out and find out who has these programs and who 
doesn't have them. Just find the existence of the programs, and 
put scrutiny on those who don't. The good news is they now have 
all begun to move that direction.
    And I mentioned earlier in testimony--you might not have 
been in here--that our next phase of this is to now go back and 
evaluate the actual program. What are the elements you are 
tracking? And let us make certain that we have a good, solid 
program in place, and we will audit that.
    But the good news is now they all have a program. How 
robust it is remains to be seen.
    Mr. DeFazio. Okay. So, I mean, that doesn't give me 
tremendous confidence. I mean, it is an improvement, but we 
need some sort of reportable metrics for how many pilots they 
have identified that have performances problems. You know, 
there should be some sort of requirement, it seems to me, as to 
what steps they are taking or have taken with those pilots in 
order to give them remedial training or perhaps to curtail 
their duty or only pair them as copilots or, to track, what 
sort of steps they are taking actively once they have 
identified problem people.
    It seems to me there should be some burden on the airlines: 
Identify these people, track them, and report to us what you 
have and what you are doing about it. Are you envisioning that?
    Mr. Babbitt. Yes, sir. I couldn't agree with you more.
    One of the things that we have said all along, is that I 
think part of what will come of this in time is increased 
responsibility on behalf of the carriers. Yes, in this case, we 
have identified some errors that pilots made. But there is an 
obligation on the carriers to make certain that they have the 
quality training, that the tools are out there. And it is our 
obligation to make certain that they provide the highest 
standard we possibly can. So it is a burden on all of us.
    Mr. DeFazio. And I would go a little further. And I am not 
sure what you mean by "carriers." In this case, we have a 
contract carrier for a major airline. I would say the 
responsibility goes to both the contract carrier and to the 
major airline. There should be some responsibility, instead of 
going for the lowest bidder there should be some responsibility 
for them to determine that this lowest bidder is actually a 
qualified bidder. And I don't think we have that kind of system 
now, except for the market-based system where people say, ``Oh, 
gee, they lost, they have a crummy regional carrier. I think I 
will stay away from that airline.''
    Mr. Babbitt. Right. And I appreciate and we have certainly 
gotten a lot of comment and dialogue on that issue.
    I do think, when we talk about, you know, the carriage 
rights and those types of things, we are on the safety side. 
Those agreements made between commercial operations are 
probably at a higher level of the Department of Transportation.
    Mr. DeFazio. Right, but at least notification. I mean we 
have fought over this for years. It is like you think you have 
bought a ticket on Continental, but actually, you are flying 
this leg with Colgan.
    Mr. Babbitt. Right.
    Mr. DeFazio. At least that level of disclosure, I think, 
would be useful. And perhaps I don't know whether that is 
within the jurisdiction of the FAA directly or whether that 
comes from some other part of----
    Mr. Babbitt. There is a requirement, but the requirement is 
rather small and often after the fact, where, when you arrive 
at the gate, they are obliged to tell you with notification 
that it is being operated by----
    Mr. DeFazio. Yeah, it is a little late at that point, you 
know.
    Mr. Babbitt. Yes, sir. Yes, sir.
    Mr. DeFazio. I mean, you are kind of far--, I think the 
original idea was people would be notified at the time of 
booking. Isn't that correct, Mr. Chairman?
    And so I guess we need to figure out a way to translate 
that. Because I want to advantage and benefit those regional 
carriers that are doing better and not allow them to be out-
competed and dragged down by the ones who aren't. And that is 
the system we have today: Lowest common denominator rules. That 
is a problem I have had with both the RTA and the big 
association, the ATA. And I have said that to a number of their 
directors over the years. You do not benefit your high-
performing airlines by representing the lowest-value people in 
your organization. I know you want their dues, but these other 
people--we need to be bringing them up, not dragging other 
people down.
    The current system drags other people down, and we have to 
fix that problem. Part of that is why we are arguing over hours 
and training and so that they can't shortcut there, but part of 
it goes to some of these other things which are--, there has to 
be some chain of responsibility here.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you.
    And you are correct in your assumption about the bill that 
we have passed out of the House. It does two things. Number 
one, there is a provision that says truth in advertising, and 
it mandates that the Internet Web sites that sell airline 
tickets disclose to the purchaser on the first page of the Web 
site the air carrier that operates each segment of the flight. 
And we also make them print it on the ticket, as well.
    So the Chair thanks the gentleman and now recognizes the 
gentlelady from Texas.
    Ms. Johnson. Thank you very much, Mr. Chairman. And I 
apologize for being late, but Dr. Ehlers and I have been 
running between Committees.
    I would like to ask unanimous consent to put my opening 
remarks in the record.
    Mr. Costello. Without objection.
    Ms. Johnson. And, Administrator Babbitt, I know that your 
hands are probably full, but keep in mind that people are 
increasingly concerned about flying, and yet we don't want to 
see that stop.
    Could you tell me what your review entails when you review 
the crew member training, the qualifications, and management 
practices?
    Mr. Babbitt. Sure. One of the areas that we are very 
focused on and we are actually working with Congress and this 
Committee on is to remove the possibility that someone in the 
hiring process doesn't have--or someone who is responsible for 
the hiring, for the acquisition of a new pilot, that that 
person, he or she, has a complete record of this pilot's 
history. And that would include the pilot's military history, 
their history within the FAA, their history at other air 
carriers.
    We realized, unfortunately, through tragedies, that that 
wasn't always the case. And we passed PRIA, which is the Pilot 
Records Improvement Act, which gives the carriers that. But we 
left an unintended consequence there that the pilot has to, 
because of privacy issues, the pilot has to give people the 
permission to do that.
    And so we are trying to work through this so that there 
should be one place where you can say, "I am about to hire this 
pilot. I would like to know their entire record." We have 
uniform traffic violations. If I got a speeding ticket in Texas 
and I got another one in Virginia, it is going to show up. And 
that is what we want to see here.
    If someone has had a problem--the problem we have seen is 
they say, "Oh, well, they failed one check ride. That is not so 
bad." If they failed one in the military, if they failed two in 
front of the FAA, if they failed two more at their last 
carrier, that is a trend, and that is what we need to be able 
to put light on.
    Ms. Johnson. Thank you. Now, do you focus strictly on 
pilots?
    Mr. Babbitt. These bills, yes, ma'am, this is focused on 
pilot hiring.
    Ms. Johnson. Because other crew members should have some 
training standards, as well.
    Mr. Babbitt. Uh-huh.
    Ms. Johnson. Mr. Scovel, you have made the statement that 
you cannot regulate professionalism, and you are exactly right. 
But what action, if any, can FAA and the industry take to 
address the key safety concerns?
    Mr. Scovel. Ms. Johnson, thank you.
    I think my oral statement was that we cannot "mandate" 
professionalism; my written statement says "regulate." There is 
a little bit of difference there. And to draw that distinction 
more finely, I think that certain key aspects of professional 
behavior can be regulated and, on occasion, should be.
    Mr. Babbitt has outlined a voluntary approach, a consensus-
building approach, to enhance professionalism across the 
aviation industry through all pilots, and we certainly endorse 
that. We would urge the agency, as well, when significant 
safety problems are identified in the professionalism area, 
that regulation be considered truly as a tool in the toolkit 
rather than exclusive reliance on a consensus or voluntary 
approach.
    Ms. Johnson. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentlelady, and it is 
good to see you back with us.
    The Chair now recognizes the gentleman from Michigan, Dr. 
Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. And I apologize, as 
the gentlewoman from Texas has. We were both in another 
Committee, and I also had a markup going on.
    I did want to comment on something that disturbed me very 
much. I read most of the transcript, all of the important parts 
of the Colgan incident, and I was just exclusively astounded 
and dismayed at the lack of professionalism that was displayed 
in the transcript. I think that is a very key factor.
    Now, I am familiar with some pilots who have gone to 
probably the best aviation school in the country, perhaps in 
the world. And I won't name it because I will get in trouble 
with everyone else. But I am just very impressed at the 
knowledge that this person has and the ability. And this person 
did fly in the industry for some time and left for various 
reasons. But when talking to this person about it, you know, he 
was just astounded that anyone would be allowed in the cockpit 
that displayed the lack of professionalism and the lack of 
confidence that the Colgan pilots did.
    The question I think we have to worry about is, how do you 
teach professionalism? I am not sure you can. How do you 
communicate it? I think you can do that by example.
    And perhaps the best way is that the right-seat person 
trains with excellent pilots in the left seat who have 
exhibited a teaching ability, a teaching skill, even if they 
are not part of the same particular airline, but usually 
airlines are related. So perhaps a commuter airline candidate 
would fly with some of the larger planes for a brief time and 
just observe what the experienced and well-trained pilots do.
    And, for example, we know the current administrator of the 
FAA was in the Airline Pilots Association, and I have talked to 
him about the good old days when I used to be able to fly in 
the cockpit, as the rest of our Committee was. And it was just 
so clear the incredible professionalism of the average pilot in 
the airline industry.
    And, perhaps, maybe the candidates for positions have to 
ride for half a year in the jump-seat of a large jet and watch 
how carefully and thoughtfully the experienced pilots operate 
and the professionalism that they have. I don't think you can 
teach professionalism in a class. You can teach responsibility 
and then give them the opportunity to work directly or to 
observe directly well-trained pilots who have been in the 
business a long time. I think that would certainly do a lot 
more than requiring more hours would, because if a pilot is not 
well-trained, you can require more hours but they will just 
practice the same bad habits.
    So, having rambled for a bit, I would just appreciate the 
comments of either of our witnesses on the points I have raised 
and potential solution I have offered.
    Mr. Babbitt?
    Mr. Babbitt. Dr. Ehlers, thank you very much. I share your 
views.
    One thing I would like to clear up. We have made a lot of 
observations. Right now, today, over this country, we are going 
to have about 50,000 flights. That will mean tens of thousands 
of airline pilots are going to be flying those flights. The men 
and women who do this day-in and day-out are going to carry 2 
million people, and they are incredibly professional. We got to 
see a very bad exposure that resulted in a tragedy from a less 
than professional crew. But so many of the crews do conduct 
themselves professionally.
    And my goal in this strive for professionalism is to put it 
in front of them to make everybody in the cockpit aware that, 
when we have a sterile cockpit violation, there are two people 
in a conversation. Otherwise, it would be a monologue. And what 
I want is, when one person violates the sterile cockpit rule, 
the other person says, "Excuse me, we are below 10,000, we will 
conduct this on the ground," or, "Let's finish this climb. We 
will talk about this when we get out of the sterile 
environment." Somebody has to be reminded.
    And what we have had is, in some cases, lapses like we have 
seen. And it has put the bright light on it. I think we can do 
a lot with training. I think we can do a lot by simply bringing 
it to their attention. You used a phrase I like, and that is, 
you know, you repeat bad habits. You know, practice just makes 
permanent. What we want is to practice the right thing and show 
people the right procedures and the right way to be a 
professional in the cockpit, and that is what these programs 
are trying do today.
    And I think we are going to bear fruit with it. I see a lot 
of interest in it. I know myself, we didn't have to ride for 
half a year, but we had to ride for about a half a month when I 
was a new pilot. We had to just sit in the jump-seat and watch 
the crew for our first half a month on the line, watch a crew. 
Today, they have initial operating experience; they actually 
sit in the seat.
    But, we can find what works better and enhance them and 
expand on them. But I completely agree with you.
    Mr. Ehlers. Mr. Scovel?
    Mr. Scovel. I would agree with Mr. Babbitt on this point: 
mentoring, leadership by example. I think all of us in our 
professional lives can look back, no matter what our field is, 
and recognize the value that that kind of experience has 
brought to us in enhancing our own professionalism.
    I think the NTSB's point, however, is also a good one, in 
its report on the Colgan crash released just the day before 
yesterday. And that is that specific aspects of behavior, like 
leadership training, like workload management, ought to be 
required by mandate in carriers' training programs.
    Key, too, I think is the fact that we are victims today of 
all the many potentially distracting electronic devices that 
are available to us. And most unfortunately in the Colgan 
crash, there is evidence that the first officer had been text-
messaging when she should have been observing the sterile 
cockpit rule.
    Now, she wasn't called on it by her pilot, but if there 
were a rule banning such devices from the flight deck, as NTSB 
has recommended now, perhaps she would have followed that rule. 
Again, no guarantees, but as part of a rule, as part of 
training, as part of follow-up by a diligent pilot, maybe that 
particular aspect of the Colgan crash wouldn't have happened or 
been recorded.
    Mr. Ehlers. Yes. Although, given the transcript I read, I 
am not sure it would have helped that much.
    But let me just say, what I was trying to get at when 
talking about having observed pilots, I don't think it would 
help much for a Colgan pilot to observe another Colgan pilot if 
there is a problem there already. I am talking about having 
them observe a pilot who has 5,000 hours or something and knows 
the rules very well and follows them.
    And most anyone who is in charge of the pilots would know 
who is best at that, who is not a grumpy pilot and wouldn't, 
sort of, snarl at the newcomers, but who would be very friendly 
and enjoy teaching, et cetera. It wouldn't be too hard to 
identify those, and I think that would be a real plus.
    Thank you. I yield back.
    Mr. Costello. You yield back. The Chair thanks the 
gentleman and now recognizes the Ranking Member, Mr. Petri.
    Mr. Petri. Thank you, Mr. Chairman.
    I just wanted to ask a question of General Scovel, 
following up on a concern expressed by Mr. DeFazio and others 
about how you have a competitive industry under a lot of 
economic pressure and, yet, have a framework that protects and 
ensures safety, rather than people being put under increasing 
pressure to cut corners. And the result is what we all fear, 
and that is that we have an increase in accidents and loss of 
life.
    And the industry, itself, has kind of a hierarchal 
relationship. There are the international carriers and the 
national carriers, and then there are the people who 
subcontract sometimes with one, sometimes with more than one 
carrier, to provide regional service and so on.
    Should we be building on that and relying on the major 
carriers to regulate the regionals? Or should we be making sure 
the Federal Government regulates everyone and maybe also 
regulates the way they contract with each other? I mean, do you 
have some comment on how we can deal with this hierarchal 
situation and the pressure it is putting on some of the 
performances of the regionals?
    Mr. Scovel. Mr. Petri, a tough question. Let me take a stab 
at it.
    First off, we have to acknowledge that, by statute, FAA's 
primary mission is aviation safety. So that reach must extend 
throughout the aviation carriers that are under the 
jurisdiction of the FAA.
    The Committee may recall that, about 10 years ago, at the 
Congress's request, my office did work concerning the 
responsibilities of U.S. carriers with regard to their 
international code-share partners. At that point, the concern 
was, again, that there were safety lapses, and U.S. carriers 
had no role or no responsibility in seeing that those were 
mitigated. The rules have changed now, and U.S. carriers do, 
indeed, have an obligation to at least audit the safety 
programs and the training programs, the maintenance programs of 
their international code-share partners.
    And that is a model that I think may have led to Chairman 
Oberstar's and Chairman Costello's request to my office 
yesterday that we examine, on the domestic market, whether U.S. 
mainline carriers should have such a relationship with their 
domestic regional partners as well. We just got the request 
yesterday. We will certainly turn to it most expeditiously. We 
hope to have some information and data that will be helpful to 
the Committee as it considers that point.
    Mr. Petri. Well, it is complicated because sometimes it is 
not just one carrier, and it may be an additional safety, but 
you couldn't think it could be a primary delegation of 
oversight or whatever. I don't know. You are going to have to 
respond to that question.
    But this is a concern, whether there should be one 
regulator or there should be multiple regulators, some 
hierarchy of regulation. We really would appreciate your 
thoughts on how we should be making sure we get to the highest 
common denominator rather than this flight to the bottom that 
we all fear in a competitive economic environment.
    Mr. Scovel. I understand. And we will do our best to bring 
you that information, Mr. Petri.
    Mr. Costello. The Chair thanks the Ranking Member.
    And let me thank you, General Scovel, for your good work, 
as always. You have testified before this Subcommittee many 
times, and we give you plenty of work to do. And I can assure 
you that we will continue to do that, as we sent our latest 
request in to you yesterday.
    Administrator Babbitt, let me commend you. I said earlier I 
know that there are people, including myself, who get 
frustrated because of the process and the time that it takes to 
get something done. But, as I said earlier, I have dealt with a 
number of administrators since I have been on this 
Subcommittee, and you have acted very quickly. And, given the 
fact that the bureaucracy is as it is, you have had some 
success because of your action. We are seeing the airlines 
voluntarily do some things that they should have been doing on 
their own before. And we trust that you will follow up, as we 
will, as this Subcommittee will, to make certain that what the 
airlines have agreed to do they will, in fact, follow up on and 
carry out.
    Let me also say that, in spite of your best efforts, it is 
going to take legislation to address some of these issues. That 
is why we introduced our legislation. You and I have met 
several times about a number of issues in the legislation. I am 
pleased that you stated today your support for the legislation, 
and I would hope that, as I said, the Senate will act so that 
we can move forward and actually pass some legislation, get to 
conference, and get it to the President. So I appreciate your 
support, and we trust that you will continue to work with us to 
perfect any legislation that we might bring through the 
Congress.
    To the families, let me say again: Thank you for being here 
today. We appreciate your continued support. We appreciate the 
fact that you take time out of your lives to be here to push 
this legislation and to push us, not only the agency, the FAA, 
but the Congress into action. And I would encourage you, as 
well, to contact your United States Senators to encourage them 
to address the airline pilot and safety issues that we have put 
in our bill and to stress the importance that they need to act 
so that we can, in fact, move legislation and into law.
    So let me again thank you, Mr. Scovel, Administrator 
Babbitt, for being here.
    And that concludes this hearing. The Subcommittee stands 
adjourned.
    [Whereupon, at 12:56 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T4812.014
    
    [GRAPHIC] [TIFF OMITTED] T4812.015
    
    [GRAPHIC] [TIFF OMITTED] T4812.016
    
    [GRAPHIC] [TIFF OMITTED] T4812.017
    
    [GRAPHIC] [TIFF OMITTED] T4812.018
    
    [GRAPHIC] [TIFF OMITTED] T4812.019
    
    [GRAPHIC] [TIFF OMITTED] T4812.020
    
    [GRAPHIC] [TIFF OMITTED] T4812.021
    
    [GRAPHIC] [TIFF OMITTED] T4812.022
    
    [GRAPHIC] [TIFF OMITTED] T4812.023
    
    [GRAPHIC] [TIFF OMITTED] T4812.024
    
    [GRAPHIC] [TIFF OMITTED] T4812.025
    
    [GRAPHIC] [TIFF OMITTED] T4812.026
    
    [GRAPHIC] [TIFF OMITTED] T4812.027
    
    [GRAPHIC] [TIFF OMITTED] T4812.028
    
    [GRAPHIC] [TIFF OMITTED] T4812.029
    
    [GRAPHIC] [TIFF OMITTED] T4812.030
    
    [GRAPHIC] [TIFF OMITTED] T4812.031
    
    [GRAPHIC] [TIFF OMITTED] T4812.032
    
    [GRAPHIC] [TIFF OMITTED] T4812.033
    
    [GRAPHIC] [TIFF OMITTED] T4812.034
    
    [GRAPHIC] [TIFF OMITTED] T4812.035
    
    [GRAPHIC] [TIFF OMITTED] T4812.036
    
    [GRAPHIC] [TIFF OMITTED] T4812.037
    
    [GRAPHIC] [TIFF OMITTED] T4812.038
    
    [GRAPHIC] [TIFF OMITTED] T4812.039
    
    [GRAPHIC] [TIFF OMITTED] T4812.040
    
    [GRAPHIC] [TIFF OMITTED] T4812.041
    
    [GRAPHIC] [TIFF OMITTED] T4812.042
    
    [GRAPHIC] [TIFF OMITTED] T4812.043
    
    [GRAPHIC] [TIFF OMITTED] T4812.044
    
    [GRAPHIC] [TIFF OMITTED] T4812.045
    
    [GRAPHIC] [TIFF OMITTED] T4812.046
    
    [GRAPHIC] [TIFF OMITTED] T4812.047
    
    [GRAPHIC] [TIFF OMITTED] T4812.048
    
    [GRAPHIC] [TIFF OMITTED] T4812.049
    
    [GRAPHIC] [TIFF OMITTED] T4812.050
    
    [GRAPHIC] [TIFF OMITTED] T4812.051
    
    [GRAPHIC] [TIFF OMITTED] T4812.052
    
    [GRAPHIC] [TIFF OMITTED] T4812.053
    
    [GRAPHIC] [TIFF OMITTED] T4812.054
    
    [GRAPHIC] [TIFF OMITTED] T4812.055
    
    [GRAPHIC] [TIFF OMITTED] T4812.056
    
    [GRAPHIC] [TIFF OMITTED] T4812.057
    
    [GRAPHIC] [TIFF OMITTED] T4812.058
    
                                    

</pre></body></html>
